March 4, 2011

JAMES J. GALLAGHER
DISTRICT MANAGER, PHILADELPHIA METROPOLITAN CUSTOMER SERVICE
 DISTRICT

SUBJECT: Management Advisory – Follow-Up Review of Operations and Service in the
        Philadelphia Customer Service District (Report Number NO-MA-11-003)

This report presents the results of our follow-up review of operations and service in the
Philadelphia Metropolitan Customer Service District (Project Number 11XG009NO000).
This self-initiated review addresses operational risk. Our objective was to determine if
the U.S. Postal Service implemented the recommendations made in our management
advisory report, Allegations Concerning Operations and Service in the Philadelphia
Customer Service District (Report Number NO-MA-09-001, dated March 30, 2009). See
Appendix A for additional information about this review.




          Illustration 1: The Philadelphia Processing and Distribution Center (P&DC).

Conclusion

Overall, operations and service have improved in the Philadelphia Metropolitan
Customer Service District. Management fully implemented 10 of the 13
recommendations. These recommendations entailed improving communication with
employees and customers, modifying staffing of operations based on mail volumes, and
increasing supervision of employees.
Follow-Up Review of Operations and Service in the                             NO-MA-11-003
 Philadelphia Metropolitan Customer Service District


Management also partially implemented three of the recommendations. However, we
identified issues at the Philadelphia P&DC with color-coding, mail condition reporting,
and mail flow similar to those found in our March 2009 report. Specifically:

       502 of 1,050 staged Standard Mail containers reviewed at the Philadelphia
        P&DC (48 percent) were not properly color-coded in accordance with Postal
        Service color-code policies.
       Not all delayed mail was being accurately reported.
       Manual operations did not always process small parcels in a timely fashion,
        which resulted in delayed mail.

These recommendations were not fully implemented due to lack of management
oversight. Consequently, service scores and customer satisfaction could be adversely
impacted. See Appendix B for our detailed analysis of this topic.

We recommend the district manager, Philadelphia Metropolitan Customer Service
District:

1. Provide management oversight to ensure compliance with color coding and delayed
   mail condition reporting procedures as well as ensuring the timely processing and
   dispatching of small parcels.

Management’s Comments

Management agreed with the findings and recommendation. They have provided a
target date of April 30, 2011, to implement the recommendation. See Appendix D for
management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation in the report.




                                                       2
Follow-Up Review of Operations and Service in the                          NO-MA-11-003
 Philadelphia Metropolitan Customer Service District



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director
Network Processing, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Megan J. Brennan
    Jordan M. Small
    David E. Williams, Jr.
    Kristin A. Seaver
    Daniel P. Muldoon
    Corporate Audit and Response Management




                                                       3
Follow-Up Review of Operations and Service in the                                                      NO-MA-11-003
 Philadelphia Metropolitan Customer Service District



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service OIG developed a risk model using 11 performance indicators1
to rank Postal Service districts by overall performance. In fiscal year (FY) 2008, the
model identified the Philadelphia Metropolitan Customer Service District as one of the
most at-risk districts. During Q2, FY 2010 Philadelphia was the second most at-risk
district. However, in subsequent quarters they have improved their ranking. In Q1, 2011
they have improved to 15th of 74 in districts ranked overall.

As the OIG initiated fieldwork to review performance of the Philadelphia P&DC in
November 2008, news articles were reporting incidents of damaged, delayed, and
destroyed mail, as well as numerous employee complaints. Consequently, at the
request of Postal Service management, we expanded our review to include allegations
about mail processing, transportation, and delivery operations in the Philadelphia
Customer Service District. Several allegations suggested the possibility of criminal
intent; therefore, the project became a joint effort between OIG Audit and Investigations
staffs.

Of the 18 allegations, one was substantiated, seven were partially substantiated, and
10 were not substantiated. Thirteen recommendations to address the substantiated and
partially substantiated allegations included improving communication with employees
and customers, modifying staffing of operations based on mail volumes of employees,
and increasing supervision of employees (see Appendix C). The details of the
substantiated allegation involving report falsification of delayed First-Class Mail and
Standard Mail were covered in a separate investigative report. The remaining findings
resulted from process failures, not from intentional misrepresentations or inappropriate
conduct. The substantiated allegation involved the understatement of delayed mail
volumes. Management agreed with the findings and recommendations.

This audit is a follow-up to our March 30, 2009 report and addresses the
13 recommendations made in that report.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service implemented the
recommendations made in our March 30, 2009 report, Allegations Concerning
Operations and Service in the Philadelphia Customer Service District. To determine
whether the Philadelphia Metropolitan Customer Service District implemented the
recommendations from that report, we observed operations at the Philadelphia P&DC
as well as 10 delivery units in the Philadelphia Metropolitan Customer Service District.

1
 The 11 performance indicators are: overnight, 2-day and 3-day service, plant delays, transportation delays,
Breakthrough Productivity Initiative (BPI), delivery overtime, customer service delays, delivery point sequence
percentage, mail processing overtime, and carriers after 5 p.m.


                                                          4
Follow-Up Review of Operations and Service in the                                   NO-MA-11-003
 Philadelphia Metropolitan Customer Service District


We also interviewed Postal Service officials and employees. In addition, we analyzed
mail counts and volume, employee training records, delivery confirmation data and
color-coding procedures.

We conducted this review from November 2010 through February 2011 in accordance
with the Council of the Inspectors General on Integrity and Efficiency, Quality Standards
for Inspection and Evaluation. We discussed our observations and conclusions with
management officials on November 19, 2010, and included their comments where
appropriate.

We assessed the reliability of volume and training data. We determined that the data
were sufficiently reliable for the purposes of this report.

PRIOR AUDIT COVERAGE

   Report Title              Report              Final Report          Report Results
                             Number                  Date
Activation of the       NO-AR-08-004               7/10/2008    We found that not all activation
Philadelphia                                                    steps were fully implemented,
Processing and                                                  resulting in significant mail
Distribution Center                                             delays. Management partially
                                                                agreed with one
                                                                recommendation and agreed
                                                                with the other.
Allegations             NO-MA-09-001               3/30/2009    We found that of 18 media
Concerning                                                      allegations, one was
Operations and                                                  substantiated, seven were
Service in the                                                  partially substantiated, and 10
Philadelphia                                                    were not substantiated.
Customer Service                                                Management agreed with our
District                                                        findings and recommendations.




                                                       5
Follow-Up Review of Operations and Service in the                               NO-MA-11-003
 Philadelphia Metropolitan Customer Service District


                               APPENDIX B: DETAILED ANALYSIS

Operational and Service Concerns

The Philadelphia Metropolitan Customer Service District fully implemented 10 of the 13
and partially implemented three of the recommendations from our prior report (see
Appendix C for the recommendations). We identified a few issues with color-coding,
mail condition reporting, and mail flow at the Philadelphia P&DC similar to those found
in our March 2009 report. Three recommendations from that report were not fully
implemented due to lack of management oversight. The statuses of our prior
recommendations are discussed below.

Color-Coding

Our prior report recommended the Postal Service provide color-code training and
supervisory oversight to employees. The Philadelphia P&DC In-Plant Support made
extensive efforts to implement the internal controls necessary to comply with the
National Color Code Policy including use of a color-code discrepancy log. Based on our
observations, they are also using the correct national color-code tags and are correctly
changing the color-code tag at the critical entry time. In addition, color-code instructional
signage has been added to enhance mail flow through the facility.




Illustration 5: A color-code
chart at the Philadelphia
P&DC provides instruction
for employees tagging
mail.




While the Philadelphia P&DC has made positive strides in the color-code area, there
are still opportunities for improvement. For example, 502 of 1,050 staged Standard Mail
containers reviewed at the Philadelphia P&DC (48 percent) were not properly color-
coded in accordance with Postal Service color-code policies. Specifically, color-code
tags were missing from 292 (28 percent) of containers while color-code tags were
missing the time and/or date on 210 (20 percent) of the containers. In addition, mail
processing staff at the Philadelphia P&DC did not always follow-up on internal color
code reviews conducted by In-Plant Support.



                                                       6
Follow-Up Review of Operations and Service in the                                  NO-MA-11-003
 Philadelphia Metropolitan Customer Service District




Illustration 6: During one of
our observations, 12 of 17
containers did not have
color-code tags.




According to the national color-code policy for Standard Mail, color-coding procedures
provide a guide to maintaining service goals for Standard Mail. All Standard Mail will be
color-coded and Standard Mail without color-coded tags will be coded the same color as
the oldest mail in the unit at the time of its discovery. Additionally, all color-code tags will
comply with a standardized national format which will require employees to enter the
date and time of mail entry on each tag.

Philadelphia P&DC color-code discrepancies occurred because only 342 of 1,442
(24 percent) of mail processing employees completed the required color-code refresher
training. In addition, closer supervision of employees would help ensure compliance
with color-code policies. By not accurately color-coding the mail, the Postal Service
cannot ensure timely processing, dispatch, and delivery of Standard Mail. Additionally,
missing or incomplete color-code tags could lead to inaccurate reporting of delayed and
on-hand mail.

Mail Condition Reporting

Our prior report recommended verifying delayed mail counts conducted by data
collection technicians. The purpose of this verification was to ensure the accurate
reporting of delayed mail. In February 2010, Philadelphia P&DC issued a standard
operating procedure (SOP) in order to clarify reporting procedures. However, we
observed that not all delayed mail was being accurately reported. Specifically:

 While observing the mail condition count on Wednesday, November 17, 2010, we
  noticed the 5-digit flats color-coded for Thursday delivery were not properly included
  in the delayed mail count. Postal Service policy states that employees should report
  destinating 5-digit non-delivery point sequenced mail2 as delayed 1 day before the
  scheduled delivery day. Bringing these matters to the attention of plant management
  resulted in proper reporting, effective November 18, 2010.

2
    Destinating 5-digit mail requires additional sorting to the carrier route.


                                                                7
Follow-Up Review of Operations and Service in the                                                        NO-MA-11-003
 Philadelphia Metropolitan Customer Service District



   During our review of mail condition reporting, we noted that small parcels were not
    reported in the delayed mail count. The employee performing the count indicated
    that there was no space on his count sheet for reporting on-hand3 or delayed4 small
    parcel volume. However, in our opinion, adequate space exists on the count-sheet
    and proper verification of delayed mail counts would have revealed this discrepancy.
 
Not properly reporting delayed volumes may prevent management from making
effective operational decisions and negatively impact customer service.

Mail Flow

Our prior report recommended expediting mail flow throughout the facility. Based on our
workroom floor observations and review of SOPs, we determined that the Philadelphia
P&DC, for the most part, has adequate internal controls in place to optimize mail flow
throughout the facility. During observations, we found sufficient signage and floor
markings to adequately stage mail and enhance mail flow through the plant (see
Illustration 7).




Illustration 7: Signage and
use of color-codes and
labels clearly direct this
mail to the processing on
the Delivery Bar Code
Sorter.




However, based on our observations, we noted that manual operations did not always
process small parcels in a timely fashion, which resulted in delayed mail. For example,
on November 17, 2010, at 5 a.m., we observed several First-Class™ small parcels
sorted into sacks. That evening, we observed that the same, sacked parcels had not
been dispatched. An employee in the unit advised us that parcels were not always

3
  On-hand quantity is the total inventory of all available mail at the beginning of the MODS day, by designated
operation within the facility, regardless of service commitment.
4
  Delayed mail occurs when mail is not processed, finalized, or dispatched from a specific operation or facility in time
to provide the subsequent operation or facility the allotted time necessary to ensure delivery by the programmed
delivery day.


                                                            8
Follow-Up Review of Operations and Service in the                                       NO-MA-11-003
 Philadelphia Metropolitan Customer Service District


dispatch daily due to time constraints. We reviewed delivery confirmation data for
several of the parcels and found that, while they were scheduled for delivery on
November 12, they were not actually delivered until November 18, 2010 — a delay of 6
days.

Operational and Service Improvements

Employee Communication5

Philadelphia Metropolitan Customer Service District management has increased the
level of communication with employees. A review of meeting minutes and interviews
with Philadelphia Metropolitan Customer Service District employees revealed that
management held regular meetings with employees to address their concerns and
communicate operational issues, such as new machine deployments; future facility
expansion plans; and current Postal Service events, service and safety issues.
Management also used bulletin boards, newsletters, signs, and placards to enhance
employee communication.




Illustration 2: Information is
provided for employees on
a Flat Sequencing System,
which can be seen in the
background.




Waste Mail

A Philadelphia Metropolitan Customer Service District effort was successful in ensuring
that mail sent for recycling was properly verified. Postal Service policy requires a
supervisor to verify a carrier’s Unendorsed Bulk Business Mail6 once a month.
Observations at both the plant and carrier units verified adherence to the policy (see
Illustration 3).

5
    This section covers recommendation numbers 3 and 12 in the March 30, 2009 report.
6
    Standard Mail that cannot be delivered.


                                                         9
Follow-Up Review of Operations and Service in the                                                  NO-MA-11-003
 Philadelphia Metropolitan Customer Service District




Illustration 3: Waste mail
with a verification signature
and date awaits transport
to the recycling center from
the Philadelphia P&DC.




Street Supervision

The Philadelphia Metropolitan Customer Service District has increased street
supervision of its carriers to ensure they complete their routes by 5 p.m. Based on our
observations and interviews of delivery unit employees, supervisors walk with carriers,
review carrier delivery point scans, and observe carrier driving practices. From FYs
2008 through 2010, the Philadelphia Metropolitan Customer Service District has
consistently had a lower percentage of carriers returning after 5 p.m. compared to area
and national averages (see Chart 1). This helps ensure the mail is delivered the same
time every day.

                            Chart 1: Carriers Returning After 5 p.m.

  30.00%

  25.00%

  20.00%

  15.00%

  10.00%

   5.00%

   0.00%
            Gov Q1  Gov Q2  Gov Q3  Gov Q4  Gov Q1  Gov Q2  Gov Q3  Gov Q4  Gov Q1  Gov Q2  Gov Q3  Gov Q4 
             2008    2008    2008    2008    2009    2009    2009    2009    2010    2010    2010    2010


                     PHILADELPHIA METRO                     EASTERN             NATIONAL



                                                       10
Follow-Up Review of Operations and Service in the                              NO-MA-11-003
 Philadelphia Metropolitan Customer Service District



Timely Mail Delivery in Delivery Units

We visited 10 delivery units for “Carriers Returning after 5 p.m.” and observed very little
delayed mail. In addition, observations of mail conditions in the unit were consistent with
conditions reported in the Customer Service Daily Report System.

Contingency Planning

The Philadelphia Metropolitan Customer Service District updated their contingency plan
to ensure operations continue in an emergency. They identified facility point of contacts
and notified all facilities of the changes. As a result, mail delivery should continue with
minimal service interruption in the event of an emergency. Fortunately, they have not
had to activate their emergency plan.

Automated Package Processing System (APPS) Staffing and Maintenance

The Philadelphia P&DC management established a bid matrix worksheet to identify the
employee and employee classification (mail handler or clerk) assigned to the APPS
operation. This helped management ensure that the APPS operation had sufficient
staffing. Our observations confirmed that the APPS had adequate staff to timely process
mail and ensure the machines were properly maintained and functioning.

APPS Modifications

The Philadelphia P&DC’s modifications to the APPS have decreased the frequency of
jams on the machine. As a result, mail damage and rejects have been reduced thereby
improving sortation accuracy. The reject rates for the APPSs at the Philadelphia P&DC
slightly decreased from FYs 2009 through 2010 and were comparable to the national
average (see Chart 2).

 Chart 2: FYs 2009 and 2010 Philadelphia P&DC and National APPS Reject Rates




                                                       11
Follow-Up Review of Operations and Service in the                                                      NO-MA-11-003
 Philadelphia Metropolitan Customer Service District


Mail Preparation

The Philadelphia P&DC worked with mailers packaging to improve APPS scan and read
rates. In May 2010, a team from the Philadelphia Metropolitan Customer Service District
visited a major medicine mailer and discussed packaging revisions in an effort to
improve mail processing machine scan rates. We observed the APPS operation and
noted mail sortation improvements in the APPS machine. These packaging
improvements (see Illustration 4) contributed to the improved reject rates (see Chart 3)
at the Philadelphia P&DC.




Illustration 4: Packages of
medicine waiting for
processing on the APPS
include material that helps
the package and label
remain flat during
processing.




Staffing Analysis

The Philadelphia Metropolitan Customer Service District evaluated staffing at each mail
processing operation and delivery unit. As a result of a staffing analysis, the
Philadelphia P&DC reduced the mail processing compliment from 1,639 in March 2009
to 1,372 in September 2010. They also implemented a bid matrix to monitor employee
movement throughout the Philadelphia P&DC and to ensure that each operation was
adequately staffed. Our observations revealed few instances of idle employees.

We performed a productivity analysis to assess Philadelphia P&DC productivity. We
compared Philadelphia's FY 2010 First-Handled Piece (FHP) productivity (defined as
FHP volume divided by workhours) to the other Group 17 P&DCs. For Labor Distribution
Codes (LDCs) 11, 12, 13, 14, and 15, we compared the Philadelphia P&DC FHP
productivity to the average of the other Group 1 P&DCs. For LDC 17 and 18, we
compared the percentage of hours used to total hours. The results of our analysis are
depicted in Table 1. The shaded cells show where the Philadelphia P&DC is performing
below the average of other Group 1 facilities. This indicates that the Philadelphia

7
 The facilities that process mail are divided into seven groups ranked either according to mail volume outlined in the
BPI or by facility square footage. Group 1 facilities are the largest of the P&DCs.


                                                          12
Follow-Up Review of Operations and Service in the                              NO-MA-11-003
 Philadelphia Metropolitan Customer Service District


P&DC’s staffing levels may be excessive in LDCs 11, 14, 15, 17, and 18. However,
additional observations and analysis would be required to draw any authoritative
conclusions on staffing levels.

      Table 1: Philadelphia P&DC Productivity Comparison with Other Group 1
                                    Facilities

          Labor Distribution Code (LDC)                     Philadelphia   Group 1 Median
LDC 11 – Automated Distribution (Letters and Flats)         2,766 PPH*       3,728 PPH
LDC 12 – Mechanized Distribution (Letters and Flats)        2,866 PPH        2,472 PPH
LDC 13 – Mechanized Distribution Other                       283 PPH          118 PPH
LDC 14 – Manual Distribution                                 279 PPH          314 PPH
LDC 15 – Remote Bar Code System                              751 PPH         1,740 PPH
LDC 17 – Mail Processing Direct – Other Operations            41.24%           37.74%
LDC 18 – Mail Processing Indirect/Related                      9.54%           8.31%
*Pieces per Hour (PPH)




                                                       13
Follow-Up Review of Operations and Service in the                                                 NO-MA-11-003
 Philadelphia Metropolitan Customer Service District


                          APPENDIX C: RECOMMENDATIONS FROM
                          PRIOR MANAGEMENT ADVISORY REPORT8

We recommended the acting district manager, Philadelphia Customer Service District,
take the following actions, to be completed no later than the end of FY 2009:

1. Provide color-code training and supervisory oversight to employees.

2. Verify delayed mail volume counts conducted by data collection technicians.

3. Conduct regular meetings to foster good employee relations and more readily identify
   and address employees’ concerns.

4. Ensure mail sent for recycling is properly verified.

5. Improve street supervision to ensure carriers deliver mail in a timely manner.

6. Ensure mail at carrier stations is delivered in a timely manner.

7. Improve communications and contingency planning when mail is directed to other
   plants for processing.

8. Expedite mail flow throughout the facility.

9. Ensure Automated Package Processing System operations are properly staffed and
   maintained.

10. Modify the Automated Package Processing System to reduce damage to packages.

11. Contact mailers to improve labeling and packaging.

12. Effectively communicate operational issues to employees.

13. Evaluate staffing at each mail processing operation and delivery unit.




8
 Allegations Concerning Operations and Service in the Philadelphia Customer Service District (Report Number
NO-MA-09-001, dated March 30, 2009).




                                                       14
Follow-Up Review of Operations and Service in the           NO-MA-11-003
 Philadelphia Metropolitan Customer Service District


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                       15
